In The Supreme Court of the United States
Endre’ Glenn (Pro SE)
(Petitioner)
v.
Brennan H. Moss,
PIA ANDERSON DORIUS REYNARD & MOSS LLC.
(Respon den ts)
PROOF OF SERVICE
I, , do swear or declare that on this date, Friday, August 16, 2019, as required
by Supreme Court Rule 29 I have served the enclosed and Petition for a Writ of
Certiorari, Supplemental Appendix on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
William O. Kimball, Jr.
PIA ANDERSON MOSS & HOYT LLC
136 E SOUTH TEMPLE STE 1900
SALT LAKE CITY, UT 84111
(801)350-9000
bkimball@padrm.com
(Defendant)

Shane W. Norris
Coldwell Banker Residential Brokerage
1750 PARK AVENUE
PO BOX 2370
PARK CITY, UT 84060
(801)755-3717 (Movant)
shane.norris@summitsothebvsrealtv.com

John C. Rooker
JONES WALDO HOLBROOK &
MCDONOUGH (SLC)
170 S MAIN ST STE 1500
SALT LAKE CITY, UT 84101
(801)521-3200 (Movant)
irooker@ioneswaldo.com

Walter T Keane
2825 E Cottonwood Pkwy Ste 500
Salt Lake City, UT 84121
walter@waltertkeane.com
(801) 808-0125

I declare under penalty of perjury that the foregoing is true and correct. Executed on
Friday, August 16, 2019.

Endre’ Glenn (PRO SE)

